AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 19■X

MICHAEL MCCARRON,
Petitioner,
v.
DECARLO & SHANLEY, P.C.,
Respondent.
X

STATE OF NEW YORK

)

COUNTY OF NEW YORK )
I, Noel Reyes, being duly sworn according to law and being over the age of 18, upon
my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 16th day of March, 2020,1 served the within Petition for a Writ of
Certiorari in the above-captioned matter upon:
John DeCarlo
Yuliya S. Mirzoyan
DeCarlo & Shanley
533 South Freemont Ave, 9th Floor
Los Angeles, CA 90071
(213)488-4100
idecarlo@deconsel.com
vmirzovan@deconsel.com
by sending three copies of same, addressed to each individual respectively, and enclosed
in a properly addressed wrapper, through the United States Postal Service, by Express
Mail, postage prepaid. An electronic version was also served by email to each individual.

RECEIVED
MAR 1 8 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

That on the same date as above, I sent to this Court forty copies and 1 un-bound
copy of the within Petition for a Writ of Certiorari and three hundred dollar filing fee
check through the United States Postal Service by Express Mail, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 16th day of March, 2020.

(

Noel Reyes

Sworn to and subscribed before me this 16th day of March, 2020.

Elias Melendez
./
Notary Public State of New YdWr"'
No. 24-4799661
Qualified in Kings County
Commission Expires Aug. 31, 2021
#295095

0

COUNSEL PRESS
(800) 274-3321 • (800) 359-6859
www.counselpress.com

